BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Respondent's Brief in Opposition Capital
Case-Execution Date Set May 15, 2024 in 20-1171,
Michael Madison v. State of Ohio, was sent via Three
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Three Day and e-mail service to the
following parties listed below, this 29th day of March,
2021:
Timothy Sweeney
Law Office of Timothy F. Sweeney
820 West Superior Ave.
Suite 430
Cleveland, OH 44113
(216) 241-5003
tim@timsweeneylaw.com

Counsel for Petitioner
Michael C. O'Malley
Cuyahoga County Prosecutor
Katherine E. Mullin
Assistant Prosecuting Attorney
Counsel of Record
1200 Ontario Street, 8th Floor
Cleveland, OH 44113
(216) 698-6454
kem ullin@prosecutor .cuyahogacounty. us

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001

Suite 102

www.beckergallagher.com

Cincinnati, Ohio 45249

: Franklin Square
1300 I Street, NW, Suite 400E
' Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 29, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

77LM_ u?t.

c}--'1. (

oD cj- I

~K).~

Notary Public
[seal]

